         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Inspection Report
Alleged Storage Capacity Concerns at
the Strategic Petroleum Reserve




INS-L-12-06                     September 2012
                                  Department of Energy
                                    Washington, DC 20585
                                       September 26, 2012


MEMORANDUM FOR THE PROJECT MANAGER, STRATEGIC PETROLEUM RESERVE



FROM:                    Sandra D. Bruce
                         Assistant Inspector General
                           for Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Inspection Report on "Alleged Storage Capacity
                         Concerns at the Strategic Petroleum Reserve"
BACKGROUND
The Department of Energy's Strategic Petroleum Reserve (SPR) has the largest stockpile of
government-owned emergency crude oil in the world. SPR provides the President of the United
States with a response option should a disruption in commercial oil supplies threaten the U.S.
economy. SPR consists of 62 caverns located at 4 sites in Louisiana and Texas, and is operated
for the Department by DM Petroleum Operations Company (DM). The Office of Fossil Energy
(FE) has primary oversight of SPR.

The SPR crude oil inventory is stored in underground salt caverns that have an authorized
storage capacity of approximately 727 million barrels (MMB). These caverns are susceptible to
"creep," a geological force that causes caverns to close over time, thereby decreasing available
cavern space to store oil. A process known as "leaching" is used to create cavern space by
injecting fresh water at high pressure to dissolve salt. In order to monitor and manage creep,
SPR Project Management Office (PMO) established a self-imposed 20-year creep allowance as a
benchmark for cavern maintenance planning purposes.

The Office of Inspector General received a complaint alleging that: (1) the Department and DM
intentionally overfilled SPR; (2) Department and DM officials were awarded big bonuses to fill
SPR to the authorized storage capacity; and (3) filling SPR to the authorized storage capacity
played a role in a July 2010 fatality at one of the SPR sites. We initiated the inspection to
examine the facts and circumstances surrounding the allegations.

CONCLUSIONS AND OBSERVATIONS

We did not substantiate the allegations. We did find that the Department is in the process of
addressing technical concerns that could impact the ability to sustain authorized storage levels.

During 2003, a reevaluation of SPR cavern storage capacity revealed that the existing storage
could be increased by 27 MMB. In October 2004, FE's Office of Petroleum Reserves authorized
the increase of cavern storage capacity to 727 MMB. In August 2005, the Energy Policy Act of
2005 directed the expansion of SPR to one billion barrels from its then authorized capacity of
727 MMB. Incremental funding towards the expansion began in November 2005, which
supported site acquisition activities such as engineering and geotechnical reviews, permit
applications and environmental reviews. 1 However, in April 2011, Congress rescinded funding
for the SPR expansion.

The SPR PMO self-imposed an allowance benchmark of 20 years to monitor and manage creep
over 30 years ago. According to several Department officials, the 20-year self-imposed
benchmark used for cavern maintenance planning purposes is not a written requirement. The
benchmark, however, enables SPR PMO to monitor and manage cavern creep for operational
readiness. The caverns which the SPR developed were designed to support five complete
drawdowns that would have compensated for volume lost from cavern creep. The following
drawing depicts a typical cavern at the SPR.




                                              Storage Capacity

We did not substantiate the allegation that the SPR was overfilled. Starting in October 2006,
Sandia National Laboratories (Sandia) raised concerns regarding decreasing SPR volume caused
by changes in cavern operating pressures. In 2007 and again in 2009, DM raised concerns about

1
 The Department selected Richton, Mississippi, as the cavern site for expansion. During further consultation with
several governmental entities, including the Mississippi Department of Environmental Quality and U.S. Fish and
Wildlife Service, the Department proposed to prepare a supplemental environmental impact statement regarding the
changes; however, in April 2011 funding for the expansion was rescinded.
                                                        2
the decreasing rate of cavern volume to meet the 20-year creep allowance that would indicate
additional cavern maintenance would be necessary. Because SPR PMO, Sandia and DM could
not reach consensus on these technical issues, SPR fill operations were not interrupted.

Efforts to resolve differing professional opinions on capacity issues between Sandia, DM and
SPR PMO were completed in March 2010. As a result, SPR PMO implemented several
corrective actions designed to help prevent further capacity decreases. Furthermore, in response
to the Libya crisis, in June 2011, by Presidential Order, the SPR sold 30 MMB of crude as part of
the coordinated International Energy Agency response. This reduction addressed the immediate
capacity issues and permitted the Department to implement more aggressive leaching activities
to maintain the authorized storage capacity.

                                Performance Awards to Fill SPR

We did not substantiate the allegation that the Department and DM officials were awarded "big
bonuses" to fill SPR to the authorized storage capacity of 727 MMB. We reviewed the
performance appraisals of four of the five SPR PMO managers for FYs 2009 and 2010 and
determined that the awards received were not directly related to the 2009 fill activities. Further,
we reviewed DM's Performance Evaluation and Management Plans and Performance Fee Board
Reports for FYs 2006 through 2011 and determined that DM was incentivized and awarded to
safely fill the SPR caverns to the authorized storage capacity of 727 MMB during FYs 2009 and
2010. However, we noted that the performance incentives were part of contractual performance
work statements and the SPR PMO annually established standards for each major work area to
be accomplished. In particular, DM's performance incentives were directly related to SPR
PMO's objective of filling the caverns to the authorized storage capacity, as directed by the
Department's Office of Fossil Energy. Additionally, we noted DM's performance fee related to
the oil fill accounted for approximately 2.8 percent and 4.2 percent of the annual performance
fee of approximately $7 million, or $200,000 and $300,000 for FYs 2009 and 2010, respectively.

                          Fatality Related to Storage Capacity Concern

We did not substantiate the allegation that filling SPR to its authorized storage capacity played a
role in a July 2010 fatality. Specifically, we confirmed that the fatality occurred while a
contractor was cleaning a crude oil storage tank, but we could find no relation to the storage
capacity concern identified in the allegation. We reviewed the Department's Office of Health,
Safety, and Security (HSS) report, Independent Review of the Fatality at the Strategic Petroleum
Reserve Bryan Mound Site, dated September 2010, and determined that the fatality was
attributed to an equipment system failure. Also, our interview of a SPR PMO manager and
review of tank maintenance schedule revealed that the tank cleaning activity was part of an
ongoing scheduled maintenance program and not attributed to the fill activities. Additionally,
we reviewed the HSS Computerized Accident Incident Reporting System (CAIRS) and
determined that there had been no increase in safety incidents during the 2009 fill activities or
the subsequent periods from 2010 through 2011. Furthermore, there were no additional CAIRS
safety incident reports that were directly linked to the fill activities.



                                                 3
No recommendations or suggestions are being made; therefore, a formal response to this report is
not required. We appreciate the cooperation of your staff during our inspection.

Attachment

cc:   Deputy Secretary
      Associate Deputy Secretary
      Acting Under Secretary for Energy
      Chief of Staff
      Assistant Secretary for Fossil Energy
      Deputy Assistant Secretary for Petroleum Reserves




                                               4
                                                                                    Attachment 1
                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of this inspection was to determine the facts and circumstances surrounding the
allegation that: (1) the Department and DM intentionally overfilled the Department's SPR; (2)
Department and DM officials were awarded big bonuses to fill SPR to the authorized storage
capacity; and (3) filling SPR to the authorized storage capacity played a role in a July 2010
fatality at one of the SPR sites.
SCOPE

The allegation-based inspection was performed from January 2012 through September 2012 at
the SPR PMO Field Office in New Orleans, Louisiana, Sandia National Laboratory, in
Albuquerque, New Mexico and at Fossil Energy Program Office in Washington, District of
Columbia.

METHODOLOGY

To accomplish the inspection objective, we:

   •   Reviewed applicable regulations, directives, and policies related to authorized storage
       capacity;

   •   Reviewed and analyzed cavern capacity reports and cavern maintenance information;

   •   Conducted interviews with Federal and contractor personnel;

   •   Interviewed the complainant; and

   •   Reviewed safety incident and environmental reports.

We conducted this allegation-based inspection in accordance with the Council of the Inspectors
General on Integrity and Efficiency's Quality Standards for Inspection and Evaluation. Those
standards require that we plan and perform the inspection to obtain sufficient, appropriate
evidence to provide a reasonable basis for our conclusions and observations based on our
inspection objective. We believe the evidence obtained provides a reasonable basis for our
conclusions and observations based on our inspection objective. Accordingly, the inspection
included tests of controls and compliance with laws and regulations to the extent necessary to
satisfy the inspection objective. Because our review was limited, it would not necessarily have
disclosed all internal control deficiencies that may have existed at the time of our inspection.
Finally, we relied on computer-processed data, to some extent, to satisfy our objective. We
confirmed the validity of such data, when appropriate, by reviewing source documents.

An exit conference was waived by the Strategic Petroleum Reserve Project Management Office
and Fossil Energy officials.



                                                5
                                                                                      Attachment 2

                                        PRIOR REPORT


Special Report on the Expansion of the Strategic Petroleum Reserve (DOE/IG- 0767, June
2007). The objective of the review was to evaluate serious concerns raised by the public and
congressional entities about procedures used by the Department in eliminating Bruinsburg,
Mississippi as an expansion location. For example, a member of Congress raised concerns to the
Department on several occasions that in determining the size of the Bruinsburg salt dome, the
Department had not: (1) considered existing well data, (2) resolved questions about data
reliability concerning the location of wells, and (3) used existing seismic data. Additionally, four
private-sector geologists concluded that the Bruinsburg salt dome was large enough to meet the
Department's storage requirements for 160 million barrels of oil. Finally, Congress was
concerned that the Department's planned approach at the Richton site to use a 100-mile long
pipeline to the Gulf of Mexico to dispose of brine produced during the creation of the storage
caverns could cause environmental damage due to pipeline leaks. Our review found that the
Department and its contractor analyzed all available well data and seismic data related to the
Bruinsburg site and augmented this information with 11 additional seismic tests. We also found
that there are inherent uncertainties involved in the process of estimating the size of the salt
domes. As a consequence, the exact size and shape of the Bruinsburg salt dome was not fully
known. Professional geologists have interpreted the available data differently, and we were not
able to resolve these differences of opinion. With reference to the concern about brine leaks, we
found that the Department had improved its pipeline protection measures at its existing facilities
and planed to employ such improved measures in support of the Richton storage operations.




                                                 6
                                                                     IG Report No. INS-L-12-06

                           CUSTOMER RESPONSE FORM
The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

    1. What additional background information about the selection, scheduling, scope, or
       procedures of the audit or inspection would have been helpful to the reader in
       understanding this report?

    2. What additional information related to findings and recommendations could have been
       included in the report to assist management in implementing corrective actions?

    3. What format, stylistic, or organizational changes might have made this report's overall
       message more clear to the reader?

    4. What additional actions could the Office of Inspector General have taken on the issues
       discussed in this report that would have been helpful?

    5. Please include your name and telephone number so that we may contact you should we
       have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of f Inspector General wants to make the distribution of its reports as customer friendly
 and cost effective as possible. Therefore, this report will be available electronically through the
                                 Internet at the following address:

               U.S. Department of Energy Office of Inspector General Home Page
                                     http://energy.gov/ig

   Your comments would be appreciated and can be provided on the Customer Response Form
                                  attached to the report.
